)epartment of Health and Human Services

       OFFICE OF
  INSPECTOR GENERAL




 APPROPRIATENESS OF MEDICARE
PRESCRIPTION DRUG ALLOWANCES
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIG’S Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION                   AND INSPECTIONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs. This report was prepared in the Philadelphia
Regional Office under the direction of Robert A. Vito, Regional Inspector General.


PHILADELPHIA REGIONAL             STAFF              HEADQUARTERS STAFF

Linda M. Ragone, Project Leader                      Mary Beth Clarke, Program Specialist

Shane Lanzo, Intern

Vivek Rae, Intern




To obtain copies of this report, please call the PhiladelphiaRegional Office at (800) 531-9562.
Department of Health and Human Services

      ~ OFFICE OF
   INSPECTOR GENERAL




 APPROPRIATENESS OF MEDICARE

PRESCRIPTION DRUG ALLOWANCES





                       SERWCE$
                   #
             ~d+                 ~oq


        ~w                             JUNE   GIBBS BROWN
        :                              Inspector   General
        %
         % $
          ‘%
           ++                                   MAY 19%

              >
            ‘+dga
                                              0EI-03-95-O0420

               EXECUTIVE                         SUMMARY


PURPOSE

To assess the appropriateness   of Medicare Part B allowances for prescription   drugs
through   a comparison   with Medicaid reimbursement  mechanisms.

BACKGROUND

While many Americans       believe the Medicare program does not cover prescription
drugs as a benefit, in actuality the Medicare Part B program allowed at least $1.4
billion dollars for prescription drugs in 1994. Between 1992 and 1994, Medicare
expenditures for drugs increased more than 100 percent.

Medicare does not pay for over-the-counter or many prescription drugs that are self-
administered under Part B. However, the program does pay for certain categories of
drugs used by Medicare beneficiaries. Under certain circumstances, Medicare covers
drugs that are used with durable medical equipment or infusion equipment. Medicare
will cover certain drugs used in association with dialysis or organ transplantation.
Drugs used for chemotherapy and pain management in cancer treatments are also
covered. The program also covers certain types of vaccines such as those for flu and
hepatitis B.

We collected data from three information sources for our comparison of Medicare and
Medicaid drug payment methodologies. For information on Medicare prescription
drug allowances in 1994, we compiled data from the Health Care Financing
Administration’s (HCFA) National Claims History File. We collected drug rebate
data from HCFA’S Medicaid Drug Rebate Initiative (MDRI) System. We also
surveyed Medicaid agencies in all 50 States and the District of Columbia.

FINDINGS

Uiu.ikra dug rebate program sirnihzrto iWdicaid’.y Medicare would have saved $122
miUion for 17prewnption   drugs in 1994.

State Medicaid agencies receive manufacturer drug rebates according to Federal law.�
Since the enactment of the Omnibus Budget Reconciliation Act of 1990,�
manufacturers are required to have rebate agreements with the Medicaid program in�
order to be eligible for Medicaid reimbursement of their drug products. Medicare has�
no such rebate program. If Medicaid rebate amounts were applied to Medicare�
utilization data, the Medicare program would have saved $122 million or 14.6 percent�
of its allowances for 17 drugs. If one applied the 14.6 percent savings estimate to�
Medicare’s $1.4 billion in drug allowances for 1994, Medicare could have saved $211�
million in 1994 if a drug rebate program had been in effect.�



                                             i
Medicare ako could have saved $144 rniilkm in 1994 had the program employed a
diwounted AWP dmg reimbursement forrnuih like many Medicaid States.

Medicare presently pays for most prescription drugs based on the Average Wholesale
Price (AWP) of the drug product. State Medicaid agencies have the authority to
develop their own pricing mechanisms for prescription drugs subject to upper payment
limits established by HCFA. Although Medicaid State programs used a number of
different formulas to determine drug reimbursement in 1994, 40 States used some
form of discounted AWP to determine drug product payments to pharmacies.

The lack of a national drug co&-based billing system WOUMprevent HCFA @m taking
advantage of rmmufacturer dug rebates and other dkcounted rehzbumement fomu.dhs.

Drugs are billed to the Medicare program based on codes developed by HCFA.�
These codes are developed as part of the HCFA Common Procedure Coding System�
(HCPCS). The codes define the type of drug and, in most cases, a dosage amount.�
The codes do not indicate whether a brand or generic version of the drug was�
administered. Unlike Medicare, most drug suppliers bill Medicaid using a national�
drug code (NDC). These NDCS identify the manufacturer or distributor of the drug,�
the product dosage form, and the package size. From the NDCS, the drug can be�
identified as a specific brand or generic version and the proper rebates and discounted�
reimbursement formulas can be applied.�

RECOMMENDATION�

The findings of this report indicate that Medicare allowances for prescription drugs�
may not be appropriate. We have provided evidence that both a discounted AWP�
reimbursement formula and a rebate program for prescription drugs could result in�
significant savings to the Medicare program. The magnitude of these savings could�
reach over one-third of a billion dollars.�

We believe the information in this report provides further support for a�
recommendation made in an OIG report entitled Medicare Payments for Nebulizer

Drugs. We recommendedthat HCFA reexarnin
  e its Medicare drugreimbursement
methodologies,with a goal of reducingpaymentsas appropriate. This
recommendation was based on a review of several drugs used in conjunction with
nebulizers. In this report, we have expanded the review to a larger number of drugs.

The HCFA concurred with the recommendation and is examining available options in
an effort to make appropriate drug payment reductions. The HCFA is also working
on a crosswalk between the current coding system for prescription drugs and the
National Drug Codes.




                                           ii
                    TABLE                    OF CONTENTS

                                                                                                                PAGE



EXECUTIVESUMMARY                    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


INTRODU(XION          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...1�

FINDINGS     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7�

 . Drugrebates       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7�

 � Discounted AWP reimbursement                   . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...8�

 �NDC-based      billingsystem          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...9�

RECOMMENDATION                . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...10


APPENDICES

f%   Description of17HCPCS            Codes       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..A-1�

B:	 State Medicaid Reimbursement              Formulas for Outpatient Drugs
     Billed withNDC     Codes       . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..B-I
Medicaid Coverage and Payment for fiexription   DnJgs

Prescription drug coverage under the Medicaid program is an optional benefit. Each
State program can choose whether to provide recipients with prescription drug
coverage. At the present time, a1150 States and the District of Columbia have chosen
to provide a prescription drug benefit.

Each State Medicaid agency has the authority to develop itsown reimbursement
mechanism for prescription drugs subject to upper payment limits establishedby
HCFA. Unlike Medicare, most drug suppliers bill Medicaid for reimbursement using
a national drug code (NDC). These NDCS identify the manufacturer or distributor of
the drug, the product dosage form, and the package size. From the NDCS, the drug
can be identified as a brand or generic version. Each drug manufactured or
distributed for sale in the United States has its own unique NDC code.

State Medicaid agencies also receive manufacturer drug rebates according to Federal
law (Section 1927 of the Social Security Act). With the enactment of the Omnibus
Budget Reconciliation Act of 1990 (OBRA 90), pharmaceutical manufacturers are
required to have rebate agreements with the Medicaid program for drugs dispensed to
recipients. Manufacturers are required to have these rebate agreements in order to
be eligible for Medicaid reimbursement of their drug products.

In 1994, the quarterly rebate for brand name drugs was based on the greater of 15.4
percent of Average Manufacturer Price (AMP) or the difference between the AMP
and the Best Price. The AMP is the average price paid by wholesalers for products
distributed to the retail class or trade. Best Price is the lowest price paid by any
purchaser exclusive of depot prices and single-award contract prices as defined by any
Federal agency. For generic drugs, the quarterly rebate amount for 1994 was 11
percent.

The drug rebate program significantly reduces Medicaid expenditures for prescription
drugs. The Medicaid program collected more than $2.4 billion in drug rebates
between 1991 and 1993. In 1993 alone, Medicaid collected approximately $1.41 billion
in drug rebates based on payments of nearly $8 billion.

METHODOLOGY

We collected data from three information sources for our comparison of Medicare and
Medicaid drug payment methodologies. For information on Medicare allowances for
prescription drugs, we compiled statistics from HCFA’S National Claims History
(NCH) File. We collected drug rebate data from HCFAS Medicaid Drug Rebate
Initiative (MDRI) System. We also surveyed Medicaid agencies in all 50 States and
the District of Columbia.




                                          2

Medicare Allowance Data

Todetermine thetotal Medicare allowance forprescription drugsin 1994, we
compiled a list of HCPCS codes that represent all of the drugs which Medicare
reimburses. The drug code list primarily contained HCPCS codes beginning with a J
(known as J codes) which represent mainly injectable drugs or drugs used in
conjunction with durable medical equipment. Also included in our list of drugs were
K codes which usually represent immunosuppressive drugs, Q codes which represent
mainly drugs used for End Stage Renal Disease, several A codes that represent drugs
used for diagnostic imaging, and immunization or vaccine codes that are represented
by a six digit numeric code.

We then retrieved NCH allowance and utilization data using HCFA’S Part B Extract
and Summary System (BESS). We aggregated the allowance for each code to
calculate Medicare’s total prescription drug allowance for 1994.

Rebate Calculation

To calculate potential drug rebate savings to Medicare, we focused on drugs�
representing a large percentage of the total drug allowance. Therefore, we selected�
for our review drug codes for which Medicare allowed more than $10 million in 1994.�
We determined that 24 drug codes had allowances over $10 million.�

We excluded 7 of the 24 codes from our review. We excluded two codes for drugs�
used in conjunction with nebulizers (J7620, J7670) since our office recently released a�
report on these drugs, We also removed two codes representing unclassified drugs�
(J3490, J7699) because these codes can represent drugs of various descriptions. We�
omitted two vaccine codes (90724, 90732) from our list since they are not eligible for�
rebates. Lastly, we removed one anti-hemophilia drug code (J7190) due to difficulty in�
determining dosage requirements. After making these exemptions, we analyzed the�
remaining 17 drug codes for review. The 17 HCPCS codes and drug descriptions are�
provided in Appendix A.�

In order to calculate the potential rebate saving for each HCPCS code, we applied the�
appropriate Medicaid rebate amount to Medicare’s utilization data. Since Medicaid�
rebate amounts are based on individual NDC codes, we needed to link Medicare’s�
HCPCS codes to NDC codes. This involved matching the drug product and dosage�
defined by the HCPCS code with the corresponding NDC codes for all available brand�
and generic versions of the drug.�

We used information from several sources to create a comprehensive list of NDC�
codes for each of the 17 HCPCS codes. We reviewed drug information in Drug Topics

Red Book: Phairnacyh Fundamental Reference, First DataBank5 Blue Book: Essential

Directoty of Pharmaceuticals, Physicians Desk Reference, and Drug Facts and

Comparisons.   We also received additional information from First DataBank’s�
computer database of drugs.�


                                          3
For10 of the 17codes, theprocess oflinking the HCPCScode tith corresponding
NDC codes was relatively easy to accomplish since the HCPCS codes represented
single-source drugs where only one brand name drug was available. For these drugs,
we collected NDC codes that matched the drug dosage requirement outlined in the
HCPCS code description. For the remaining seven drug codes, we needed to
determine all of the versions (both brand and generic) of the drugs produced by
different manufacturers that met the HCPCS dosage requirement. The number of
NDC codes for each of these drugs ranged from two codes to nine separate NDC
codes.

We then extracted pricing and utilization summary data from HCFA’S MDRI system.
Included in this information were the rebate amounts paid per unit of drug for each
quarter of 1994. We chose to apply the lowest quarterly rebate amount to Medicare
utilization since this would yield the most conservative savings estimate. In the few
instances where the dosage listed in the MDRI system did not match exactly with the
HCPCS dosage, we applied a conversion factor to come up with the correct rebate
amount for the HCPCS code dosage unit.

To quantify potential rebate savings for the 10 single-source drug codes, we applied
the Medicaid rebate amount per unit to drugs units that Medicare reimbursed in 1994.
To quantify the potential rebate savings for the seven multiple-source drugs, we first
determined the percentage of utilization for each NDC code. Since Medicare’s
HCPCS codes do not indicate whether a brand or generic drug is supplied, we needed
to develop an equitable way to apply rebates to the HCPCS codes representing
multiple NDC codes, We decided to apply Medicaid’s utilization patterns for brand
and generic drugs to Medicare’s usage data. We acknowledge that Medicare and
Medicaid utilization patterns may differ due to the populations they serve. However,
we believe our method was more appropriate than applying random or arbitrary usage
percentages to various products representing a single HCPCS code.

We performed several calculations to determine rebate savings for each of the seven
codes representing multiple products. We provide an example describing the steps
taken to calculate the savings for a HCPCS code representing three NDC codes.
These steps are presented in equation form in the table on page 5.

Step 1) Medicaid utilization data (units of drugs Medicaid reimbursed) for each NDC
code was extracted from the MDRI System and then aggregated to calculate a
Medicaid utilization total for the drug products represented by the HCPCS code,

Step 2) The utilization for each NDC code was divided by the total Medicaid
utilization to determine the percentage of total utilization that each NDC code
represented.

Step 3) The percentage of utilization for each NDC code was multiplied by the total
Medicare utilization for the HCPCS code to calculate Medicare’s utilization for each
NDC code.


                                           4

Step 4) These utilization figures were multiplied by the rebate amount established for
each NDC code to determine the rebate savings for the NDC codes,

Step 5) The rebate savings for all three individual NDC code were then added to
obtain the total Medicare rebate savings for the HCPCS code.




       U = Medicaid utilization for each NDC code�
       MU = Total Medicaid utilization for all three NDC codes�
       P = Percentage of total Medicaid utilization that each NDC code represents�
       TM = Total Medicare Utilization for HCPCS code�
       MU = Medicare Utilization for each NDC code�
       $R = Corresponding rebate amount for each NDC code�
       RS = Rebate savings for each NDC code�
       qb,c   =   Each letter represents one of the three individual NDC codes�

After calculating potential rebate savings for each of the seven multiple-source codes,
we added the individual rebate savings from all 17 codes to determine the overall
rebate savings to Medicare.

Medicaid Survey Data

We distributed surveys requesting drug reimbursement    and rebate information to all
State Medicaid agencies and the District of Columbia. We solicited information on
each States payment strategies for prescription drugs billed with both NDC codes and
HCPCS codes. Since Arizona and Tennessee provide pharmaceutical coverage
through managed care demonstration projects, information on drug reimbursement
was not available from these States.

For comparison purposes between Medicaid and Medicare reimbursement, we only
considered payment for the drug product or ingredients and not any additional
dispensing or administration fees that Medicaid and Medicare pay to suppliers and
physicians.

The calculation of potential savings to Medicare if the program utilized Medicaid
payment methodologies was determined by using the most frequently cited drug
reimbursement formula. We created a distribution of each State’s discounted AWP


                                                 J
percentage. Weusedthe         mode (most frequently cited percentage) ofthis distribution
in our savings calculation. However, even if we had selected the median or mean
statistic, the savings calculation would not have differed substantially since the mean of
the distribution was less than one percentage point different from the mode and the
median statistic was equal to the mode. We applied the mode discounted AWP
percentage to Medicare’s total expenditure for prescription drugs in 1994 to calculate
the potential savings to the program if payment mechanisms similar to Medicaid’s
were utilized.




                                            6�
                                   FINDINGS


Under a drug rebate program similizrto Mtzlicaidh, Medicare wouki have saved $122
millwn for 17prescription dregs in 1994.

Medicare allowed $835 million in 1994 for the 17 drugs reviewed. These drugs
represented nearly 60 percent of Medicare’s total reimbursement for prescription drug
products in 1994. If Medicaid rebate amounts were applied to Medicare utilization
data, the Medicare program would have saved $122 million or 14.6 percent of its
allowances for these drugs. The table below outlines the rebate savings that would
have been achieved for each of these 17 drugs.

                            PotentialRebate Savingsfor 17 Drugs




   J9217     Leuprolide Acetate                       $381,212,580     $63,038,028
   J0640     Leucovorin Calcium                        $74,353,182       $4,473,991
   J2405     Ondansetron Hydrochloride                 $49,741,503       $6,114,430
   J9202     Goserelin Acetate Implant                 $47,113,521      $5,430,229
   J1440     Filgrastim, per 300 mcg.            I     $39,577,902 I    $5,811,460
   J9045     Carboplatin                               $38,522,742      $7,990,478
   J9265     Paclitaxel                                $34,606,593      $4,397,292
   J1561     Immune Globulin                           $27,063,770      $2,048,880
   J1441     Filgrastim, per 480 mcg.                  $22,874,450      $3,307,050
   J9182     Etoposide, 100 mg.                        $21,756,729      $7,723,477
   J9000     Doxorubicin HCL, 10 mg.                   $16,494,331        $773,294
   J9293   [ Mitoxantrone Hydrochloride          I     $16.418.285 I    $1.134,595
   J9181     Etoposide, 10 mg.                         $15,936,362      $4,610,449
   J9031     BCG (Intravesical)                        $14,528,214      $1,652,236
   K0121     Cyclosporine                              $12,995,037      $1,736,715
   J0205     Alglucerase                               $11,140,854      $1,398,010
Although oursavings calculation was basedon 17drugs, the 14.6 percent savings
estimate could bereasonably applied to Medicare's total prescription drug benefit. A
recent extramural research report released by HCFA’S Office of Research and
Demonstrations supports this conclusion. The report stated that rebate payments had
resulted in a 17 percent reduction in 1993 drug expenditures in the Medicaid
program.1 The report also noted that after dispensing fee payments were subtracted
from Medicaid’s total drug payments for 1992 and 1993, rebate amounts were found to
be approximately 14 to 15 percent of drug product payment amounts. Based on the
support of these findings, if one applied the 14.6 percent savings estimate to
Medicare’s $1.4 billion in drug allowances for 1994, Medicare could have saved $211
million in 1994 if a drug rebate program had been in effect.

J&z&are could hoe saved an additional $144 million in 1994 had the program
employed a discounted AW dmg reimbunwment formula like many Medicaid States.

If Medicare implemented a discounted AWP reimbursement formula similar to many�
Medicaid States, the Medicare program could save approximately $144 million dollars�
in drug allowances per year.2 Although Medicaid State programs used a number of�
different formulas to determine drug reimbursement in 1994, 40 States used some�
form of discounted AWP to determine drug product payments to pharmacies.�
Seventy-eight percent of these States used a formula discounting AWP by 9 to 12�
percent in 1994,�

The States which didn’t report using a discounted AWP in their reimbursement�
formulas employed wholesale, actual, or estimated acquisition costs of the drug in their�
payment equations. A few States reimburse at the AWP level. Other States contract�
with companies to supply wholesale acquisition cost data. Still other States survey�
area wholesalers for cost data. A complete list of State drug reimbursement formulas�
for drug suppliers is presented in Appendix B.�




    lU .S. Department of Health and Human Services, Health Care Financing
Administration, Office of Research and Demonstrations, Impact of the Medicaid Drug
Rebate ProRram, Extramural Research Report funded by the Health Care Financing
Administration and prepared by the Institute for Health Services Research at the
University of Minnesota (Baltimore, MD: U.S. Department of Health and Human
Services, August 1995).

    2Based on applying a formula of AWP minus 10 percent to Medicare’s 1994 total
drug allowance. Ten percent is the amount most often used by States in discounting
AWP for reimbursement purposes.


                                           8
The lack of a national thug code-based bilhkg system wouki prevent HCFA jiom taking
advantage of manufacturer thug rebatm and other discounted reimbwement fomudas.

Because the Medicare program pays for drugs billed with HCPCS codes, it reimburses
based on a drug category and not on the specific drug product supplied. Since NDC
codes are not used to bill Medicare for drugs, the program does not know which
brand or generic form of the drug has been supplied. Information on the specific drug
supplied would be necessary for the implementation of any rebate or discounting
program by Medicare. The HCFA has recognized this and is currently developing a
method for conversion to an NDC system.

The importance of an NDC system in implementing rebates or discounted
reimbursement formulas is demonstrated by the difficulty Medicaid agencies face in
implementing such methods in the absence of NDCS. This is commonly the case for
prescription drugs billed to the Medicaid program by physicians. Although most drugs
billed to the Medicaid program are dispensed by pharmacies, physicians can bill for
drugs that they administer such as injectable drugs. Most States do not require NDCS
to be used as the billing code for drugs administered by physicians. Therefore,
physicians bill Medicaid for drugs administered by using either HCPCS (most
common), Physicians’ Common Procedure Terminology (CPT), or State-specific codes.
Since many of these codes are not easily linked to an NDC code, most of the drugs
administered by physicians and reimbursed by Medicaid never receive a
manufacturer’s rebate. More than three-quarters of the State Medicaid programs
report that they do not routinely seek manufacturers’ rebates for drugs administered
by physicians.

Not only do some States handle rebates differently for physician-administered drugs,
they also apply different reimbursement formulas to these drugs billed without NDC
codes. Only nine States use the same discounted formula for reimbursing both
pharmacy-dispensed and physician-administered drugs. About one-third of States pay
physicians based on AWP or AWP plus a percentage. Some States base their
payments on Medicare rates for HCPCS codes. Still others pay the physician’s invoice
price for the drug or a percentage of the charge billed by the physician.

Thus, the NDC system provides the foundation for payment strategies such as rebates
or discounted formulas. Without it, such strategies are extremely difficult to
implement.




                                         9�
                      RECOMMENDATION


The findings of this report indicate that Medicare allowances for prescription drugs�
may not be appropriate. We have provided evidence that both a discounted AWP�
reimbursement formula and a rebate program for prescription drugs could result in�
significant savings to the Medicare program. The magnitude of these savings could�
reach over one-third of a billion dollars.�

We believe the information in this report provides further support for a�
recommendation made in an OIG report entitled Medicare Payments for Nebulizer

Drugs. We recommendedthat HCFA reexamine its Medicare drugreimbursement

methodologies,with a goal of reducingpaymentsas appropriate. This�
recommendation was based on a review of several drugs used in conjunction with�
nebulizers. In this report, we have expanded the review to a larger number of drugs.�

The HCFA concurred with the recommendation and is examining available options in�
an effort to make appropriate drug payment reductions. The HCFA is also working�
on a crosswalk between the current coding system for prescription drugs and the�
National Drug Codes.�

We hope the additional information we have provided in this report is helpful to�
HCFA as it explores new strategies for prescription drug payment.�

For our readers’ convenience, we repeat here the options contained in our prior�
report for changing Medicare’s payment for prescription drugs. We urge readers to�
review our prior report for the full text of HCFA’S comments in response to our�
earlier recommendation and this listing of options for change.�

Discounted Wholesale Price�

Many State agencies use a discounted AWP to establish drug prices. Medicare should�
have a similar option. Medicare could base its drug payment on the lower of a�
discounted AWP or the median of the AWP for all generic sources, whichever results�
in the lower cost to Medicare and its beneficiaries. To implement this�
recommendation, HCFA would have to revise Medicare’s claims coding system which�
does not identify the manufacturer or indicate if the drug is a brand name or a generic�
equivalent, information that is needed to discount the AWP and obtain a rebate for a�
specific drug. Medicaid uses the NDC in processing drug claims. The NDC identifies�
the manufacturer and reflects whether the drug is a brand name or a generic�
equivalent.�

Manufacturers’   Rebates�

Medicare could develop a legislative proposal to establish a mandated manufacturers’�
rebate program similar to Medicaid’s rebate program. We recognize that HCFA does�


                                          10
not have the authority to simply establish a mandated manufacturers’ rebate program
similar to the program used in Medicaid. Legislation was required to establish the
Medicaid rebate program, and would also be required to establish a Medicare rebate
program. We have not thoroughly assessed how a Medicare rebate program might
operate, what administrative complexities it might pose, or how a Medicare rebate
program might differ from a Medicaid rebate program. We believe, however, the
legislative effort would be worthwhile. The same manufacturers that provide rebates
to Medicaid make the drugs that are used by Medicare beneficiaries and paid for by
the Medicare program.

Competitive Bidding

Medicare could develop a legislative proposal to allow it to take advantage of its
market position. While competitive bidding is not appropriate for every aspect of the
Medicare program or in every geographic location, we believe that it can be effective
in many instances, including the procurement of drugs. Medicare could ask
pharmacies to compete for business to provide Medicare beneficiaries with
prescription drugs. All types of pharmacies could compete for Medicare business,
including independents, chains, and mail-order pharmacies.

Inherent Reasonableness

Since Medicare’s guidelines for calculating reasonable charges for drugs result in
excessive allowances, the Secretary can use her “inherent reasonableness” authority to
set special reasonable charge limits. If this option is selected, however, it will not be
effective unless the Secretary’s authority to reduce inherently unreasonable payment
levels is streamlined. The current inherent reasonableness process is resource
intensive and time consuming, often taking two to four years to implement. Medicare
faces substantial losses in potential savings--certainly in the millions of dollars--if
reduced drug prices cannot be placed into effect quickly.

Acquisition Cost

Medicare could base the payment of drugs on the EAC. The DMERCS and carriers
currently have this option; however, HCFA has been unsuccessful in gathering the
necessary data to fully implement it. Once the problem of gathering the necessary
data is overcome, the use of the EAC would result in lower allowed amounts. A
variation of this option is to use actual rather than estimated acquisition cost.
        APPENDIX             B

State Medicaid Reimbursement Formulas for
  Outpatient Drugs Billed With NDC Codes




                   B-1
L
r
IIKansas

                  I EAC = AWP - 10%
 Kentucky




E Maine



                                      —




            B-2
B-3
II
 Texas

 Utah
 Vermont
 Virginia
 Washington




     *   Pennsylvania chose not to provide us with drug reimbursement formulas. The information in
         this table for Pennsylvania was taken from Pharmaceutical Benejits Under State Medical
         Assistance Programs published by the National Pharmaceutical Council.




                                                B-4�
